CERTIFICATE OF COMPLIANCE - RULE 33.1(h)
To the best of my understanding of this Rule, this Petition’s word count is 1,628, and
complies with the Rule’s word limitation.
I received a letter dated February 26, 2020, from this court’s clerk Jacob Levitan
instructing me to refile my Petition in Booklet format. I believe this is an error. This
court’s Rule 33.2 expressly allows petitions in 8V2 x 11 format, which I did. However, I
have done the best I am able under the circumstances and limitations of my computer
hardware and software with this you will find my Petition to re-file according to his
instructions as I am able to understand them while maintaining my right to liberal
construction by this court.

I declare (in compliance with 28 U. S. C. § 1746), under penalty of perjury that the
fonego,ng ,S tnue and connect Exceed on April

If

2020.

WJRjYlA. IcMX
itritza H. ToromanoVa, Petitioner pro se

RECEIVE©
APRJ*?M

